<html>
<title> - FEDERAL EFFORTS TO REDUCE THE IMPACTS OF WINDSTORMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       FEDERAL EFFORTS TO REDUCE
                       THE IMPACTS OF WINDSTORMS

=======================================================================


                             JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON RESEARCH &

                       SUBCOMMITTEE ON TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JUNE 5, 2013

                               __________

                           Serial No. 113-34

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
81-723                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                        Subcommittee on Research

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   ZOE LOFGREN, California
STEVE STOCKMAN, Texas                AMI BERA, California
CYNTHIA LUMMIS, Wyoming              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
                                 ------                                

                       Subcommittee on Technology

                  HON. THOMAS MASSIE, Kentucky, Chair
JIM BRIDENSTINE, Oklahoma            FREDERICA S. WILSON, Florida
RANDY HULTGREN, Illinois             SCOTT PETERS, California
DAVID SCHWEIKERT, Arizona            DEREK KILMER, Washington
                                     EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                        Wednesday, June 5, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     6
    Written Statement............................................     6

Statement by Representative Randy Neugebauer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     7
    Written Statement............................................     8

Statement by Representative Frederica Wilson, Minority Ranking 
  Member on Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    11
    Written Statement............................................    12

                               Witnesses:

Dr. Ernst Kiesling, Research Faculty, National Wind Institute, 
  Texas Tech University
    Oral Statement...............................................    13
    Written Statement............................................    16

Ms. Debra Ballen, General Counsel and Senior Vice President, 
  Public Policy, Insurance Institute for Business & Home Safety
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. David Prevatt, Assistant Professor, Department of Civil and 
  Coastal Engineering, University of Florida
    Oral Statement...............................................    38
    Written Statement............................................    40

Discussion.......................................................    52

             Appendix I: Answers to Post-Hearing Questions

Dr. Ernst Kiesling, Research Faculty, National Wind Institute, 
  Texas Tech University..........................................    64

Ms. Debra Ballen, General Counsel and Senior Vice President, 
  Public Policy, Insurance Institute for Business & Home Safety..    70

Dr. David Prevatt, Assistant Professor, Department of Civil and 
  Coastal Engineering, University of Florida.....................    75

            Appendix II: Additional Material for the Record

Submitted statement by Representative Daniel Lipinski, Ranking 
  Minority Member, Subcommittee on Research, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    82


                       FEDERAL EFFORTS TO REDUCE

                       THE IMPACTS OF WINDSTORMS

                              ----------                              


                        WEDNESDAY, JUNE 5, 2013

                  House of Representatives,
                                 Subcommittee on Research &
                                 Subcommittee on Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee on Research] presiding.

[GRAPHIC] [TIFF OMITTED] 


    Chairman Bucshon. Good morning, everyone. This joint 
hearing of the Subcommittee on Research and the Subcommittee on 
Technology will come to order.
    Good morning, and welcome to today's joint hearing entitled 
``Federal Efforts to Reduce the Impacts of Windstorms.'' In 
front of you are packets containing the written testimony, 
biographies and Truth in Testimony disclosures for today's 
witnesses.
    Before we get started, since this is a joint hearing 
involving two Subcommittees, I want to explain how we will 
operate procedurally so all Members understand how the 
question-and-answer session period will be handled. The 
Chairmen and Ranking Members of the Research and Technology 
Subcommittees will be recognized first. Then we will recognize 
Members of the two Subcommittees present at the gavel in order 
of seniority on the full Committee, and those coming in after 
the gavel will be recognized in order of their arrival. I now 
recognize myself for five minutes for an opening statement.
    Today's hearing will focus on how we can reduce the impacts 
of debilitating storms on our communities across the country. 
Even with improved forecasting capabilities and awareness, 
these storms can be unexpected and leave a trail of destruction 
in their paths. In addition to literally destroying lives, 
these windstorms shut down entire economies of a region during 
the time it takes to rebuild. Structures, while more resilient 
that they used to be, are still often not built to sustain high 
winds or storm damage that may follow these storms. Building 
codes, practices and performance standards can help, but 
oftentimes retrofitting an existing building is simply too 
costly given the relatively small risk of a direct hit of a 
windstorm.
    Federal agencies currently conduct research and development 
to help inform the resilience of buildings and communities, but 
it is not clear how each agency is conducting unique work that 
is not duplicated by another agency. I believe that a 
coordinated mechanism would help shed light into what is going 
on at the Federal level, and how it can be strengthened to 
ensure better coordination.
    Every year the Federal Government funds not only disaster 
relief but also billions of dollars in emergency supplemental 
appropriations when states are hit particularly hard by 
unexpected disasters. I believe that we need to be more 
responsible about planning how to deal with natural disasters. 
I am curious to hear from our witnesses if they believe better 
research could cut down on the dollar figure.
    Since the time that my colleague, Representative 
Neugebauer, introduced his windstorm research bill in late 
April, several Midwestern states have endured significant 
damage and loss of lives from powerful tornadoes. I would now 
like to yield to Representative Neugebauer for him to share 
some background on that legislation.
    [The prepared statement of Mr. Bucshon follows:]

 Prepared Statement of Subcommittee on Research Chairman Larry Bucshon

    Good morning, I would like to welcome everyone to our hearing.
    Today's hearing will focus on how we can reduce the impacts of 
debilitating storms on our communities across the country. Even with 
improved forecasting capabilities and awareness, these storms can be 
unexpected and leave a trail of destruction in their paths.
    In addition to literally destroying lives, these windstorms shut 
down entire economies of a region during the time it takes to rebuild. 
Structures, while more resilient that they used to be, are still often 
not build to sustain high winds or the storm surge that may follow 
these storms. Building codes, practices, and performance standards can 
help, but oftentimes retrofitting an existing building is simply too 
costly given the relatively small risk of a direct hit of a windstorm.
    Federal agencies currently conduct research and development to help 
inform the resilience of buildings and communities, but it is not clear 
how each agency is conducting unique work that is not duplicated by 
another agency. I believe that a coordination mechanism would help shed 
light into what is going on at the federal level, and how it can be 
strengthened to ensure better coordination.
    Every year the federal government funds not only disaster relief 
but also emergency supplemental appropriations when states are hit 
particularly hard by unexpected disasters. I believe that we need to be 
more responsible about planning how to deal with natural disasters and 
minimize the need for disaster supplemental funding. I am curious to 
hear from our witnesses if they believe better research could cut down 
on that dollar figure.
    Since the time that my colleague Representative Neugebauer 
introduced his windstorm research bill in late April, several 
Midwestern states have endured significant damage and loss of lives 
from powerful tornadoes. I would not like to yield to him to share some 
background on that legislation.
    We have a panel of witnesses before us who can articulate what it 
will take to cut down on the economic impacts and lives lost from these 
storms. I would like to extend my appreciation to each of our witnesses 
for taking the time and effort to appear before us today. We look 
forward to your testimony.

    Mr. Neugebauer. Thank you, Mr. Chairman, and I appreciate 
you holding this important hearing today, and you know, one of 
the things that we know about wind, particularly in West Texas, 
where I am from, wind can be your friend or it can be your foe, 
and out in West Texas right now, my congressional district, for 
example, probably has the largest concentration of wind 
production for electricity really in the world, and so that is 
the time when it is our friend, but where it can be our foe is 
obviously when we have seen these deadly tornados that have 
occurred in Texas and Oklahoma and other states recently. And 
over the history we have seen where hurricanes and windstorms 
and tornados have caused a tremendous amount of property 
damage, but more importantly, it has caused the loss of lives. 
I think it is estimated that every year there is about 80 
deaths and 1,500 injuries. I think in 2011, there were 551 
fatalities. It was not particularly a good year, and 
unfortunately, we are kind of off to a rough start this year.
    And so what makes sense is to take research and technology 
and figure out ways to incorporate into our construction 
techniques a way to protect both the people that habitate those 
facilities but also to protect and mitigate the damage. As the 
Chairman mentioned, you know, it causes billions of dollars 
worth of damage, and if we can mitigate that, it obviously 
saves that money for not only the taxpayers but for the people 
that own those properties.
    I am particularly delighted with the esteemed, great panel 
that we have today, and particularly my good friend for a long 
time, from Texas Tech, Dr. Kiesling, and for his pioneering 
work on, you know, the mitigation of wind.
    So with that, the reason that I introduced in 2004 the 
National Windstorm Impact Reduction Act basically to try to 
coordinate all of the research that is going on and make sure 
that--one of the things that I feel very strongly about is that 
it is one thing to do the research but then we have to 
commercialize and use that research, and I think one of the 
things that we have seen is a lot of the research that had been 
done across the country has been able to be commercialized, and 
I am hopeful to hear more about that today.
    But NWIRP basically does another thing too that I think is 
important, and that is to make sure that we are efficiently 
using the taxpayers' money and coordinating this. So many times 
we have seen in all agencies everybody kind of has their turf, 
and since the wind issue has a lot of different parts to it, it 
makes sense to make sure that there is coordination going on 
among the various participants that are involved in that. So 
this bill, I think, is going to help protect lives, I think it 
is going to reduce property losses but, more importantly, it 
also makes sure that there is good coordination so that when we 
do come up with good ideas, that we can make sure that we 
commercialize them and that we can utilize that information in 
the future.
    So Mr. Chairman, thank you so much for having this 
important hearing, and I look forward to hearing from these 
witnesses.
    [The prepared statement of Mr. Neugebauer follows:]

         Prepared Statement of Representative Randy Neugebauer

    Thank you, Mr. Chairman, for holding this hearing today on federal 
efforts to reduce the impacts of windstorms. This is an extremely 
important topic, particularly in light of the devastating tornado that 
tore through Moore, Oklahoma. According to the National Weather 
Service, that tornado was the widest ever recorded and one of the 
strongest. I'm looking forward to hearing testimony from today's 
witnesses about federal research and development priorities in relation 
to tornadoes and other windstorms.
    In particular, I'd like to welcome Dr. Ernst Kiesling from the 
National Wind Institute at Texas Tech University. As a fellow Red 
Raider myself, I have seen firsthand the tremendous research that Dr. 
Kiesling and his colleagues are pursuing that will continue to help 
saves lives and reduce property damage from windstorms.
    Windstorms can be devastating: every year, there are about 80 
deaths and 1,500 injuries from tornadoes. Two Thousand Eleven was an 
especially bad year, with 551 fatalities caused by tornadoes alone. The 
property destruction is also devastating. When a family loses their 
home in a windstorm, they don't just have to rebuild their house--they 
have to rebuild their lives.
    That's why the research like that being done at the Texas Tech 
National Wind Institute and elsewhere is so critical. It is helping us 
better understand the mechanics of windstorms, and teaching us how to 
build stronger, safer shelters.
    The National Science and Technology Council has stated that 
America's primary focus on disaster response is ``an impractical and 
inefficient strategy for dealing with these ongoing threats. Instead, 
communities must break the cycle of destruction and recovery by 
enhancing their disaster resilience.'' This bill would help ensure that 
the federal government is adequately addressing disaster resilience and 
mitigation, which is critical to reducing the costs of disasters to 
taxpayers.
    I first authored the bill that created NWIRP back in 2004. NWIRP 
helps to improve building codes, voluntary standards, and construction 
practices for buildings and homes. It also supports basic research to 
better understand windstorms, atmospheric science research and data 
collection, and the development of risk assessment tools and mitigation 
techniques. Since 2008 when the original authorization expired, NIST, 
NSF, NOAA, and FEMA have been conducting related activities, but have 
had no direction from Congress on the actual NWIRP program or what 
specific research it should be conducting.
    My bill, H.R. 1786, is first and foremost a bill that ensures smart 
and efficient use of taxpayer dollars. It reauthorizes and improves 
NWIRP by clarifying research priorities, enhancing coordination between 
these agencies, and establishing stronger reporting criteria. The bill 
makes NIST the lead agency. This will lead to a clearer mission for the 
program and ensure proper accountability to taxpayers. It will also 
prevent duplicative research across the agencies. It also creates a 
National Advisory Committee on windstorm impact reduction, made up of 
unpaid, non-federal employee experts to offer recommendations on the 
program and its priorities. This ensures that industry and scientific 
recommendations are taken into account when guiding the direction of 
NWIRP, leading to a leaner and more effective program. Lastly, it 
creates an Interagency Coordination Committee, chaired by the Director 
of NIST, to develop a strategic plan, coordinate budgets, and report on 
the progress of the program. This will help Congress keep better track 
of NWIRP and guarantee transparency and wise use of taxpayer dollars.
    I'm looking forward to the testimony today and hope that the 
Committee will take up and pass H.R. 1786 as soon as possible. Thank 
you Mr. Chairman.

    Chairman Bucshon. Thank you. We have a panel of witnesses 
before us who can articulate what it will take to cut down on 
the economic impact and lives lost from these storms. I would 
like to extend my appreciation to each of the witnesses for 
taking the time and effort to appear before us today. We look 
forward to your testimony.
    I now recognize Ms. Wilson for her opening statement.
    Ms. Wilson. Thank you, Chairman Bucshon and Chairman 
Massie, for holding today's hearing on the National Windstorm 
Impact Reduction Program-or NWIRP. I would also like to 
recognize our Ranking Member from the entire Committee, Ms. 
Johnson, to our Committee meeting today.
    NWIRP directs four Federal agencies--FEMA, NOAA, NSF and 
NIST--to conduct coordinated research and development on the 
nature of windstorms, their effects, and on ways to mitigate 
their impact. The program also calls on these agencies to make 
sure this research is translated into practice. This work has 
led to advances in monitoring the design and construction of 
buildings, and increased awareness and preparation by the 
public. But there is still much more to be done.
    Regrettably, consideration of this program is timely as our 
thoughts and prayers go out to the people of Moore, Oklahoma, 
who are putting the pieces back together after a massive 
tornado ripped through their community just two weeks ago. As a 
Floridian and a survivor of Hurricane Andrew, I know firsthand 
that natural hazards are a leading threat to America's economy 
and Americans' lives.
    In recent years, Americans have seen flooded subway 
stations in New York City, earthquake damage in the Nation's 
Capital, the great American city of New Orleans submerged under 
water, unimaginable devastation in Joplin, Missouri, and now 
entire neighborhoods in Oklahoma flattened to the ground.
    There has, in fact, been a record number of declared 
Federal disasters in the United States over the last two years, 
and 2011 was the deadliest year on record for tornadoes with 
over 550 fatalities.
    While we cannot stop a hurricane or tornado from happening, 
we should do all that we can to make sure our communities have 
the tools they need to respond and recover from such an event. 
We as a Nation must invest in preparedness and resilience. 
Studies of FEMA's pre-disaster mitigation program have shown 
that for every dollar we invest in mitigation activities, we 
save $3 to $4 in recovery costs.
    NWIRP has the potential to dramatically bolster the 
resiliency of our communities and reduce the costs associated 
with disaster recovery. Unfortunately, experts have expressed 
concern that insufficient funding has negatively impacted the 
implementation of the program and we are missing out on low-
cost mitigation opportunities.
    Because of this, I do have some concerns with the 
legislation we are considering today. First, the bill cuts the 
authorization level for the program by 14 percent. Second, it 
locks in this lower funding level for the duration of the bill. 
We don't have any reason to believe the agencies need any less 
money to carry out the responsibilities we assigned them the 
last time we authorized this program.
    And when we consider the devastating losses that have 
plagued the United States recently, this course of action seems 
irresponsible. That is why I reintroduced the bipartisan 
version of the Natural Hazards Risk Reduction Act, which will 
provide the program with an authorization level more 
appropriate to the task. This legislation passed the House by 
an overwhelming margin in the 111th Congress, and it also 
reauthorizes the National Earthquake Hazards Reduction Program. 
While they are differences between hazards, there are also 
commonalities and occasions where we should leverage resources.
    This Committee has an important role to play in helping 
Americans prepare for and recover from all natural hazards. By 
reauthorizing both of these programs, we can minimize the 
number of Americans who are harmed or killed by natural 
disasters or who have to face the challenge of putting their 
homes, businesses and communities back together.
    I look forward to working with my colleagues to make our 
communities more disaster resilient.
    Thank you again, Mr. Chairman, for holding this hearing, 
and thank you to the witnesses for being here today. I yield 
back the balance of my time.
    [The prepared statement of Ms. Wilson follows:]

            Prepared Statement of Subcommittee on Technology
                    Ranking Member Frederica Wilson

    Thank you, Chairman Bucshon and Chairman Massie for holding today's 
hearing on the National Windstorm Impact Reduction Program--or N-WIRP 
[N- werp].
    N-WIRP directs four federal agencies--FEMA, NOAA, NSF, and NIST--to 
conduct coordinated research and development on the nature of 
windstorms, their effects, and on ways to mitigate their impact. The 
program also calls on these agencies to make sure this research is 
translated into practice. This work has led to advances in monitoring, 
the design and construction of buildings, and increased awareness and 
preparation by the public. But there is still much more to be 
done.Regrettably, consideration of this program is timely as our 
thoughts and prayers go out to the people of Moore, Oklahoma, who are 
putting the pieces back together after a massive tornado ripped through 
their community just two weeks ago.
    As a Floridian and a survivor of Hurricane Andrew, I know firsthand 
that natural hazards are a leading threat to America's economy and 
American lives. In recent years, Americans have seen flooded subway 
stations in New York City, earthquake damage in the Nation's Capital, 
the great American city of New Orleans submerged under water, 
unimaginable devastation in Joplin, Missouri, and now entire 
neighborhoods in Oklahoma flattened to the ground.
    There has, in fact, been a record number of declared federal 
disasters in the United States over the last two years, and 2011 was 
the deadliest year on record for tornadoes with over 550 fatalities.
    While we cannot stop a hurricane or tornado from happening, we 
should do all that we can to make sure our communities have the tools 
they need to respond and recover from such an event.
    We as a nation must invest in preparedness and resilience. Studies 
of FEMA's pre-disaster mitigation program have shown that for every 
dollar we invest in mitigation activities, we save $3 to $4 dollars in 
recovery costs.
    N-WIRP has the potential to dramatically bolster the resiliency of 
our communities and reduce the costs associated with disaster 
recovery.Unfortunately, experts have expressed concern that 
insufficient funding has negatively impacted the implementation of the 
program and we are missing out on low-cost mitigation opportunities.
    Because of this I do have some concerns with the legislation we are 
considering today. First, the bill cuts the authorization level for the 
program by 14 percent. Second, it ``locks in'' this lower funding level 
for the duration of the bill. We don't have any reason to believe the 
agencies need any less money to carry out the responsibilities we 
assigned them the last time we reauthorized this program. And when we 
consider the devastating losses that have plagued the United States 
recently, this course of action seems irresponsible.
    That is why I reintroduced the bipartisan version of the Natural 
Hazards Risk Reduction Act, which will provide the program with an 
authorization level more appropriate to the task. This legislation 
passed the House by an overwhelming margin in the 111th Congress and it 
also reauthorizes the National Earthquake Hazards Reduction Program. 
While they are differences between hazards there are also commonalities 
and occasions where we should leverage resources.
    This Committee has an important role to play in helping Americans 
prepare for and recover from all natural hazards. By reauthorizing both 
of these programs, we can minimize the number of Americans who are 
harmed or killed by natural disasters or who have to face the challenge 
of putting their homes, businesses, and communities back together.
    I look forward to working with my colleagues to make our 
communities more disaster resilient.
    Thank you again, Mr. Chairman, for holding this hearing. And thank 
you to the witnesses for being here. I yield back the balance of my 
time.

    Chairman Bucshon. Thank you, Ms. Wilson. The Chair now 
recognizes the Ranking Member of the Full Committee, Ms. 
Johnson, for an opening statement.
    Ms. Johnson. Thank you very much, Chairman Bucshon, for 
holding today's hearing to examine the National Windstorm 
Impact Reduction Program.
    The last few years have been devastating years for natural 
disasters in this country. We experienced the deadliest and 
most destructive tornado season in U.S. history in 2011. 
Unfortunately, the trend continues this year with massive 
tornadoes in Oklahoma and in my home State of Texas. We have 
also had earthquakes in areas that don't usually experience 
earthquakes, including Virginia and Oklahoma. And Hurricanes 
Sandy and Irene caused widespread destruction and death along 
the Eastern seaboard.
    This Committee has an important role to play in minimizing 
the number of Americans who are harmed or killed by natural 
disasters or who have to face the challenge of rebuilding their 
homes, businesses and communities.
    By reauthorizing the National Windstorm Impact Reduction 
Program, we can reduce the vulnerability of our communities to 
disasters. Therefore, I am glad my fellow Texan, Congressman 
Neugebauer, been a champion for NWIRP and that he introduced 
legislation to reauthorize this important program.
    However, I want to express my support for the legislation 
recently introduced by Congresswoman Wilson, of which I am a 
cosponsor. The National Hazards Risk Reduction Act of 2013 
would reauthorize both the wind-related program and the 
National Earthquake Hazards Reduction Program. I believe we 
need to take a multi-hazards approach to disaster mitigation, 
and Ms. Wilson's legislation would link these two critical 
programs through the establishment of a single interagency 
coordinating committee, creating opportunities for synergy 
among the various research activities.
    I also don't believe we should prioritize one hazard 
program over another as they are all important to producing 
communities that are resilient to any and all disasters. As a 
result, I hope that as we move forward with legislation we 
consider all of the hazard programs within the Committee's 
jurisdiction.
    And finally, it is clear that NWIRP agencies have not 
gotten the resources they need to carry out all of the 
responsibilities assigned to them by Congress. Thus, I am 
concerned by the cuts proposed in the legislation that is the 
topic of today's hearing. We simply can't afford to have these 
agencies miss opportunities to implement low-cost mitigation 
measures. In the end, strong and effective hazard reduction 
programs will not only save lives and property, but also 
provide us with meaningful cost savings.
    Thank you, Chairman Bucshon, and I yield back the balance 
of my time.
    [The prepared statement of Ms. Johnson follows:]

    Prepared Statement of Committee on Science, Space and Technology
                  Ranking Member Eddie Bernice Johnson

    Thank you, Chairman Buschon for holding today's hearing to examine 
the National Windstorm Impact Reduction Program--or NWIRP.
    The last few years have been devastating years for natural 
disasters in this country. We experienced the deadliest and most 
destructive tornado season in U.S. history in 2011. Unfortunately, the 
trend is continuing this year with massive tornadoes in Oklahoma and in 
my state of Texas. We've also had earthquakes in areas that don't 
usually experience earthquakes, including Virginia and Oklahoma. And, 
Hurricanes Sandy and Irene caused widespread destruction and death 
along the Eastern seaboard.
    This Committee has an important role to play in minimizing the 
number of Americans who are harmed or killed by natural disasters or 
who have to face the challenge of rebuilding their homes, businesses, 
and communities.
    By reauthorizing the National Windstorm Impact Reduction Program, 
we can reduce the vulnerability of our communities to disasters. 
Therefore, I am glad my fellow Texan, Congressman Neugebaurer, has been 
a champion for NWIRP and that he introduced legislation to reauthorize 
this important program.
    However, I want to express my support for the legislation recently 
introduced by Congresswoman Wilson, of which I am a co-sponsor. The 
National Hazards Risk Reduction Act of 2013 would reauthorize both the 
wind-related program and the National Earthquake Hazards Reduction 
Program.
    I believe we need to take a multi-hazards approach to disaster 
mitigation, and Ms. Wilson's legislation would link these two critical 
programs through the establishment of a single interagency coordinating 
committee--creating opportunities for synergy among the various 
research activities.
    I also don't believe we should prioritize one hazard program over 
another as they are all important to producing communities that are 
resilient to any and all disasters. As a result, I hope that as we move 
forward with legislation we consider all of the hazard programs within 
the Committee's jurisdiction.
    And finally, it is clear that the NWIRP agencies have not gotten 
the resources they need to carry out all of the responsibilities 
assigned to them by Congress. Thus, I am concerned by the cuts proposed 
in the legislation that is the topic of today's hearing. We simply 
can't afford to have these agencies miss opportunities to implement 
low-cost mitigation measures. In the end, strong and effective hazard 
reduction programs will not only save lives and property, but also 
provide us with meaningful cost savings.

    Chairman Bucshon. Thank you, Ms. Johnson.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Chairman Bucshon. Now I would like to introduce the 
witnesses. Our first witness is Dr. Ernst Kiesling, a Professor 
of Civil Engineering at Texas Tech University and Executive 
Director of the National Storm Shelter Association. He has had 
a long career with Texas Tech University, serving as Chairman 
of the Civil Engineering Department and as an Associate Dean of 
Engineering for Research. He leads the storm shelter research 
effort within the Wind, Science and Engineering Research Center 
at Texas Tech. Dr. Kiesling received his M.S. in mechanical 
engineering from Texas Technological College and an M.S. and 
Ph.D. in applied mathematics from Michigan State University. 
Welcome.
    Our second witness is Debra Ballen--did I pronounce that 
right?
    Ms. Ballen. Ballen.
    Chairman Bucshon. Ballen, the General Counsel and Senior 
Vice President for Public Policy for the Insurance Institute 
for Business and Home Safety. Ms. Ballen has also worked with 
the American Insurance Association and the University of 
Colorado's Advisory Committee for the Hazards Center. She 
graduated with a J.D. from Harvard Law and an A.B. degree from 
Princeton University. Thank you.
    Our final witness is Dr. David Prevatt, an Assistant 
Professor at the University of Florida. He has been with the 
University of Florida's Department of Civil and Coastal 
Engineering since 2007. His research focuses on the mitigation 
of extreme wind damage to low-rise construction. Dr. Prevatt is 
a member of the American Society of Civil Engineers, on the 
board of the American Association for Wind Engineering, and a 
member of the U.K. Wind Engineering Society. Dr. Prevatt 
received his Ph.D. from Clemson University. Welcome.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which Members of the Committee have 
five minutes each to ask questions. Your written testimony will 
be included in the record of the hearing.
    I now recognize our first witness, Dr. Kiesling, for five 
minutes.

                TESTIMONY OF DR. ERNST KIESLING,

           RESEARCH FACULTY, NATIONAL WIND INSTITUTE,

                     TEXAS TECH UNIVERSITY

    Dr. Kiesling. Thank you. Mr. Bucshon, Mr. Neugebauer and 
distinguished Committee Members, I thank you for the 
opportunity to be here. You have done a good job of outlining 
both the problem and potential solutions, and pointed to one of 
the major problems that we face in not only lack of funding but 
lack of continuity in funding to do the research we need to do.
    One other thing I would point out is not just the loss of 
lives and the human suffering, but the anxiety that comes with 
severe events like tornados and hurricanes. And I will speak 
primarily on storm shelters or safe rooms, because that is 
where I spent most of my career working, and secondly, I think 
it addresses this last problem of anxiety and human suffering 
effectively.
    I have been part of the wind engineering program at Texas 
Tech since 1970 when an EF-5 tornado impacted Lubbock. I was 
Chairman of the Civil Engineering Department at that time. You 
can help make my day by telling me I don't look old enough to 
have done that, but I don't want you to lie.
    With your support, we have developed a world-class program 
at Texas Tech, unparalleled facilities--I have included a 
picture of some of in the report, a unique doctoral program in 
wind, science and engineering, and we have turned out about 20 
doctoral students or graduates there, and they are taking 
prominent places in the professional community.
    Today we have very good weather forecasting that gives 
information on locations and paths of tornados and hurricanes 
but we still have to deal with the effects of severe winds, and 
even the advice given the public we have found in the last two 
weeks in Oklahoma leaves much to be desired. In fact, it is 
inaccurate and dangerous, some of the advice that is being 
given. So not only do we need to do the good work such as 
forecasting has done but need to convey a consistent message to 
the public as to how do you react, how do you respond to 
disasters. A focused approach to research and development and 
implementation is needed to reduce impact of windstorms on 
urban society. Many specific areas could be mentioned--testing 
facilities, a repository for windstorm damage documentation, 
and that is in process, development of computational wind 
engineering tools, implementation of known research into 
standards and codes, and others will speak to that, development 
of manpower to pursue meaningful research and professional 
practice, and then educational programs that convey sound, 
consistent guidance to the people as to how they react and 
respond to extreme events--extreme wind events.
    Property damage can surely be abated by improved building 
codes and by their enforcement. We have a tremendous problem in 
the lack of enforcement because that is done largely at the 
local level, and there are many disconnects that occur between 
the agencies and the researchers that generate good research 
and what happens in the field, and education, I think, is the 
best way to address that.
    We have particularly in the storm shelter area available 
standards and guidelines. We have an industry association, the 
National Storm Shelter Association, and we have a program that 
recognizes those storm shelters that comply with the standards. 
We have all types of shelters available today that meet these 
standards and guidelines and provide near-absolute occupant 
protection from extreme winds, yes, even an EF-5, despite some 
of the information that has been given, particularly in the 
last couple of weeks in Oklahoma. Some of the advice given has 
been deadly and wrong. There are many characteristics of the 
Hazard Mitigation Grant program, and Ms. Johnson, you mentioned 
that. It is an excellent program that does a lot of good 
things. The downside of it is that funding that is generated is 
post disaster so it is sometimes four or five years. We are 
just now finishing some projects that were funded with the 
Hazard Mitigation program with funding growing out of Hurricane 
Ike that occurred five years ago. So it takes time, and I think 
it is important that we have, say, pre-disaster mitigation 
grants of some type and sizable ones that can do preparation 
for disasters, not respond to them. I don't understand why the 
Pre-Disaster Mitigation Grant program was discontinued, and I 
am not saying that we need that but we need something like that 
that allows us to prepare in advance.
    There has been a lot of talk about shelters being 
mandatory. I believe that the states, such as Alabama, have set 
a good example, and that storm shelters for schools should be 
made mandatory by states that have serious problems in new 
buildings, and much can be done to improve existing buildings 
in that regard. I believe that mandatory shelters should also 
be for multi-family residential housing units, vulnerable 
populations such as daycare centers, retirement villages and so 
forth, nursing homes, mobile home parks and apartments. I think 
it should not be mandatory for privately owned single-family 
and multi-family residences--though incentives of some type 
would certainly be appropriate.
    So my recommended action would simply be that you have 
identified the agencies--NIST, FEMA, NOAA, NSF. All are 
experienced in administering large-scale programs and they work 
well together, I think. We have capable professional personnel 
that conduct research if they have adequate funding to do so, 
and I think if you look particularly at the programs that have 
been funded, the earthquake program and the prediction program 
in the weather area, you will see that we have unprecedented 
return on investment in those programs, and I would encourage 
Congress to make funding available to make similar investments 
in the area of mitigating the wind disaster. Thank you.
    [The prepared statement of Dr. Kiesling follows:]

    [GRAPHIC] [TIFF OMITTED] 
    

    Chairman Bucshon. Thank you.
    I now recognize our second witness, Ms. Ballen, for five 
minutes.

                 TESTIMONY OF MS. DEBRA BALLEN,

           GENERAL COUNSEL AND SENIOR VICE PRESIDENT,

               PUBLIC POLICY, INSURANCE INSTITUTE

                   FOR BUSINESS & HOME SAFETY

    Ms. Ballen. Thank you for the opportunity to testify today. 
My name is Debra Ballen. I am with the Insurance Institute for 
Business and Home Safety, a 501(c)(3) organization wholly 
supported by the property insurance and reinsurance industries 
and dedicated to mitigation, research and communications.
    As a research organization focusing on mitigation, IBHS has 
long been supportive of the NWIRP. We provided testimony during 
hearings that led to its initial authorization as well as the 
effort to reauthorize the program in 2008, and we have worked 
in partnership on a number of projects with all of the NWIRP 
agencies. We are pleased to be here today, and we thank you for 
your interest in this important matter.
    Given the broad geographic threat of windstorms, the 
percentage of our population at risk, the frequency of events 
and the tremendous toll taken, the Federal investment in wind-
related research is much less than it should be. That said, we 
are not negative on a multi-hazard approach. A coordinated, 
well-funded research program as embodied in NWIRP is needed to 
pull together scientific information about wind hazards, wind 
engineering expertise that defines the connection between storm 
characteristics and loads imposed on buildings, structural 
engineering expertise that develops efficient systems to handle 
these loads in new and existing buildings, and national 
coordinated efforts to promote mitigation.
    We believe that IBHS can play an important role in these 
initiatives. The centerpiece of our research program is our 
unique world-class research center. Using a 105-fan array to 
simulate wind as well as full-size residential and commercial 
test specimens and other specialized equipment, IBHS can 
recreate a variety of highly realistic natural disasters 
involving wind alone, wind plus rain, wind plus fire, and wind 
plus hail.
    I would like to take a moment to show you how research and 
related communications contribute to our understanding of the 
destructive power of wind and the benefits of mitigation. You 
will see the power of wind in a video from the first public 
demonstration that we conducted at the research center in the 
fall of 2010. We subjected two wood-frame houses to a highly 
realistic storm that has occurred in North Texas and the 
Midwest. Although they look the same from the outside, the home 
on the left was built using a code as it exists in Central 
Illinois while the home on the right was built to a higher IBHS 
standard. I should add that the winds you are going to see were 
not tornadic. So here is a very short video of that test.
    [Video shown.]
    You can see just how quickly and how completely the home on 
the left was destroyed, and as you think about the loss of life 
and property had this been a real event with people inside the 
home that was destroyed, you can also understand the importance 
of research as a complement to communications in order to get 
people to pay attention, change their attitudes, and ultimately 
demand safer and stronger buildings. It is much better to learn 
this lesson in the IBHS's test chamber than from places like 
Moore, Oklahoma, and Miami, Florida.
    Along with stronger, safer building, we believe that 
mitigation leads to a stronger, safer insurance system. Among 
the insurance-related benefits of mitigation are a reduction in 
the frequency and severity of weather-related claims, a 
downward shift in the loss exceedance curve, better management 
of losses in rare but severe events, more efficient capital 
deployment, healthier private insurance markets, and less 
stress on residual markets.
    The property insurance industry's research priorities for 
wind mitigation are directly in line with policyholder 
interests: less physical destruction, less economic loss, less 
societal displacement, fewer injuries and deaths. Breaking the 
cycle of destruction so that residential and commercial 
structures do not have to be put together again and again will 
benefit building owners, occupants, communities and also 
insurers.
    In closing, I thank you for the opportunity to offer our 
comments on the critical role of mitigation research and the 
importance of NWIRP reauthorization. We urge you to move 
forward on this important legislation that will help to harness 
advancements in windstorm science and engineering in order to 
improve our Nation's safety, sustainability and resilience.
    [The prepared statement of Ms. Ballen follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    
    Chairman Bucshon. Thank you very much for your testimony.
    I now recognize our final witness, Dr. Prevatt, for five 
minutes.

                TESTIMONY OF DR. DAVID PREVATT,

               ASSISTANT PROFESSOR, DEPARTMENT OF

                 CIVIL AND COASTAL ENGINEERING,

                     UNIVERSITY OF FLORIDA

    Dr. Prevatt. Chairman Bucshon, Chairman Massie and 
honorable Subcommittee Members, my name is David Prevatt. I am 
here to advocate on behalf of the American people for the 
creation of wind hazard-resilient communities within the next 
ten years. I believe the reason we don't have this already is 
that no one has been bold enough or committed enough to demand 
it. I wish to add the support of the American Society of Civil 
Engineers and the American Association for Wind Engineering and 
my own support for H.R. 1786. These organizations have been 
working for the past ten years since Congressman Randy 
Neugebauer of Texas first proposed this legislation. We also 
support the transfer of leadership to the National Institute of 
Standards and Technology.
    Since Professor Fujita first published his Fujita Scale in 
1971 and his report on the Lubbock tornado, our populations in 
the Tornado Alley has grown 50 percent. What does that mean? We 
have more schools, we have more hospitals, commercial spaces 
and certainly a lot more houses. It is not complicated. There 
are today more objects in harm's way than there were before. 
Also, since the 1970s as well, NOAA and the National Severe 
Storms Laboratory has invested heavily in weather 
infrastructure, over $167 million over the last ten years, in 
better research to predict unstable weather, in providing 
warnings of tornados, in more equipment, forecasting products. 
The public is aware of this and confident in its use, and 
private sector has stepped up to mine it. We can get 
forecasting information on our smartphones.
    It is not complicated: longer lead times before tornado 
strikes reduce loss of life. In parallel, the 1970 Texas Tech 
University's wind engineering faculty, they initiated the first 
building damage studies after the Lubbock tornado, documented 
problems with houses, how they are made. Modern houses still 
have those problems. Houses have smaller nails, fewer nails 
than they once were in the 1940s. Connections are inadequate. 
They cannot resist tornado loads. Houses are insufficiently 
anchored to the foundations and they rock very easily. There 
are no vertical load paths in the houses built in Tornado 
Alley, and I can attest. I was there in Moore, Oklahoma, two 
weeks ago.
    It is not complicated. The result is more houses, more 
poorly built houses, and more property loss and disruption of 
our communities. Tornados now, damage has increased two and a 
half times since the 1970 Lubbock tornado.
    So my message today is not complicated. It is simply to 
tell our representatives that the people of the United States 
want to live in tornado-resilient communities. They also 
deserve to live there without fear. A tornado-resilient 
community is one where all schools have shelters or at least 
safer spaces that afford some protection to our children; that 
our hospitals and emergency buildings are all hardened against 
tornados, wind hazards and earthquakes; that our houses are 
built so that fewer will be completely destroyed, destroying 
the lives and some will be repairable after a tornado, civil 
infrastructure are designed for tornados and that the private 
sector has the research backing to work to economically develop 
affordable and weather-resilient houses. Really, it is not 
complicated.
    The wind engineering and structural engineering communities 
stand ready to begin this work. We have been ready for ten 
years. And with your support, we can begin this task to provide 
for our people. To get there, please support H.R. 1786, 
authorize its funding and sustain support for the wind 
engineering and structural engineering communities for our 
houses.
    Let us mobilize community leaders to upgrade their building 
codes and include vertical load path provisions in all 
buildings, in all buildings. Support our research community to 
work with innovative private-sector companies to design 
buildings and build resilient and sustainable 21st-century 
houses. It can be done. Advance the wind and structural 
engineering research program, support your faculty that would 
provide these solutions to these existing problems.
    Honorable Members, it really isn't complicated. Thank you.
    [The prepared statement of Dr. Prevatt follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    
    Chairman Bucshon. Thank you very much. I want to thank all 
the witnesses for your testimony. It is a fascinating subject. 
I want to remind the Members that the Committee rules limit 
questioning to five minutes. The Chair will at this point open 
the round of questions. I recognize myself for five minutes.
    Ms. Ballen and Dr. Prevatt, initially, what are the 
stepping stones that are preventing us from building better 
homes? I mean, what is the rate limiting steps? Why, even with 
all the information we have out there, why don't we do it?
    Ms. Ballen. Well, we have actually developed a strategic 
plan at IBHS that I think responds to your question, and that 
is, first we need to get people to pay attention. We have the 
research capabilities. These fine universities, work that 
groups like ours have done, provide the technical answers but 
we need people to understand them, and the video that you saw I 
think as an example of getting people to pay attention. That 
video has actually been on the Today show, it has been on the 
Weather Channel. People have seen that and begun to think about 
``gee, how do I make that not happen?'' So the next step is 
getting them to change their minds and getting them to value 
that stronger roof instead of a granite countertop, and once 
individuals are making those choices, we as a society need to 
rise up and really demand, demand to be in a community with a 
better building code or demand, you know, that Congress, you 
know, enacts these types of legislation. I think a lot of 
people just don't--they haven't gotten that first step so they 
can't get to the second step and the third step, and that is at 
least, you know, perspective on that. Dr. Prevatt?
    Dr. Prevatt. What I would add to that is, we still lack the 
knowledge of designing buildings for tornados. There has been a 
dearth of research in wind engineering that supported the 
faculty working on wind engineering matters. We had the zenith 
in the 1980s and since that time there just has not been the 
research there. Currently, we are trying to understand how the 
tornado loads interact on a particular building, how the load 
paths have to be improved in order to do that. So part of the 
problem is not only do people need to be initiated to want to 
change, we have to provide an opportunity and knowledge of how 
they can change.
    Chairman Bucshon. Thank you. I can tell you, I was in 
health care before, and there is a powerful motivating factor 
for people and it is called denial, and it is a very difficult 
thing to overcome when people see what is the statistical 
chance of their home being hit and convincing them that they 
need to have that home built with higher standards. It is very, 
very difficult thing to overcome as well as messaging why that 
is the case.
    Dr. Kiesling, this is my own personal question. Has there 
been any--is there research out there on not only telling us 
where tornados are and where they are going but how to divert 
them away from urban centers?
    Dr. Kiesling. I think the first part of that question, the 
answer is yes. Certainly, the people are doing an excellent job 
of predicting the path and where the tornados are. I don't see 
any hope of diverting, though we occasionally hear from people 
who have proposals for that. In the first place, we don't know 
where they are going to occur far enough in advance, and 
secondly, there is a tremendous amount of energy there that has 
to be dealt with in trying to divert them, so I frankly, 
personally do not have much hope for that.
    Chairman Bucshon. Or dissipate them, for example, and 
dissipate the energy or anything like that?
    Dr. Kiesling. Hopefully it can work. I have to depend on, I 
guess, the next generation to come up with solutions there 
because I simply do not see how we can dissipate or divert 
tornados.
    Chairman Bucshon. Okay. Is there a--describe the difference 
in research between straight-line winds and tornadic winds. Is 
there a big difference there?
    Dr. Kiesling. Well, straight-line winds generally, we know 
what pressures they exert on buildings and they are pretty 
predictable, but in a tornado or hurricane, the variations are 
great and I think we need to know a lot more about not only the 
intensity but the variation and the characteristics of extreme 
winds so that we can better deal with them. We are making 
progress, but again, it is a long, slow process and requires 
manpower that is hard to come by.
    Chairman Bucshon. Do you have a comment, Doctor?
    Dr. Prevatt. I would add that in tornados as well, we have 
something that we don't understand, which is vertical suction 
below the vortex, and that has never been, you know, understood 
in terms of how it reacts or interacts with the winds that are 
ensuing into the tornado.
    Chairman Bucshon. Thank you very much. My time is about to 
expire so I will now recognize Ms. Wilson for her line of 
questioning.
    Ms. Wilson. Thank you. In her testimony, Ms. Ballen states 
that wind hazard research has been underfunded for decades. The 
other witnesses also express a similar sentiment in their 
testimonies. All of you indicate that NWIRP has never been 
implemented in any meaningful way because of lack of resources. 
What opportunities are we missing by not providing the program 
with, as Dr. Kiesling puts, a reliable, sustained source of 
funding for maturation and expansion?
    Dr. Prevatt. I think we just have to look at the earthquake 
engineering program and see what benefits we have gained from 
that. We are talking about something that has been funded to 
the level of, you know, millions of dollars per year. Literally 
all other wind engineering research over the last ten years at 
the top wind engineering schools amounts to about $1 million 
per year. We are talking about, and I have seen it, Joplin, 
Missouri, Tuscaloosa and Moore, Oklahoma. We are talking about 
$2 billion, $3 billion and $5 billion. Those are the numbers, 
and we simply are not addressing them. What has happened over 
the time, unfortunately, is there has been attrition of wind 
engineering faculty. Structural engineering faculty no longer 
study how to make houses stronger, you know, commercial 
structures and so on, and these are the areas where we have the 
most damage, the most dollars lost and the most lives affected.
    Ms. Ballen. I agree certainly with everything that Dr. 
Prevatt just said. I think our feeling is that if there were 
more money that were in this program, or money in this program, 
since there really hasn't been money in this program. You know, 
we have identified in a broad way the areas where we think we 
could really lead to progress, and the first is enhanced 
understanding of the events themselves, and different issues in 
terms of understanding tornados and understanding hurricanes 
but certainly it starts with the science and the meteorology of 
that.
    The second is understanding the connections between those 
events and the built environment. We are doing some of that at 
the IBHS research center but certainly more could be done 
through enhanced funding through NWIRP of universities and 
others. We re-create the nature and then we see how nature 
reacts to the built environment, homes and small businesses.
    The third area is identifying those mitigation measures 
that actually work, the tornado-proof home or even in the area 
of hurricanes where we know a lot more. There is still a lot 
more to be learned about how to make those structures better 
able to sustain nature. And the final thing would be making 
sure that the tests that our products and standards are based 
on really do accurately reflect the real world. What we saw in 
the auto safety arena was that everyone could build a car that 
withstood the first NHTSA tests because they knew exactly what 
they needed to build to, and that didn't necessarily mean it 
was safe in the real world. And so we need to develop testing 
standards that actually do reflect what we learned from the 
first side in terms of the real-world weather events.
    As far as the funding levels are concerned, as you 
identified in your opening statement, you know, whatever the 
level is, and more is obviously better from the perspective, I 
think, of all of the panelists that are here but you also 
identified that the static funding is a problem. If the idea of 
the program is some of these are short-, some of these are 
medium- and some of these are long-term events, if you fund it 
sort of at the same level throughout the three-year period or 
whatever the period is, you get everything started and then you 
can't identify anything new in the second and third year. So we 
certainly would recommend at least modest upticks as you go 
forward so that, you know, we can make sure that we can start 
what we finish but also start other things that are identified 
in the early years of the program.
    Ms. Wilson. Dr. Kiesling, do you have any response?
    Dr. Kiesling. Sorry. What was the question? Did you ask me 
if I needed to add anything?
    Ms. Wilson. Do you want to add anything about the lack of 
funding?
    Dr. Kiesling. I think, again, not only the level of funding 
but the continuity is a problem because particularly with young 
faculty because young faculty are under tremendous pressure to 
produce research to generate funding, to publish, and if they 
have areas where that funding is more readily available and 
dependable, then they are going to go to those areas. So it is 
very difficult for us to recruit young faculty into wind 
engineering, for example, because of the lack of continuity of 
funding.
    Ms. Wilson. Thank you.
    Chairman Bucshon. The Chair now recognizes Mr. Schweikert 
for his questioning.
    Mr. Schweikert. Mr. Chairman, I would like to yield to the 
sponsor of the bill, Mr. Neugebauer.
    Mr. Neugebauer. And I appreciate the gentleman.
    You know, I think one of the things that we want to happen 
here, and it has been alluded to by the witnesses, is getting 
people to build buildings that will mitigate some of the 
potential damage and loss of life. You know, I think one of the 
misnomers out there is that you have to build Fort Knox so that 
the cost of building that, you know, is not economic because of 
the probability that event happening versus the cost of doing 
it, and so one of the things I think I am very big on is using 
the carrot, you know, rather than the stick. And so I have a 
couple of questions. One of those, do you see within--for 
example, many of these losses of property were insured losses, 
and so obviously the insurance industry has a huge interest, 
you know, in this issue. Two things. Do you see them 
recognizing a difference in homes or buildings built to 
different standards so that there is incentive for homeowners 
or people building a building to, you know, spend the extra 
dollars to do that? So that would be my first question.
    Ms. Ballen. Let me take that one since I know a little bit 
about that issue. We look at property mitigation in two ways. 
One are building codes and one are efforts to go above building 
codes. Building codes, as much as we support them, are really 
intended for life safety as opposed to property protection, and 
so while obviously a code-built home is better in many ways, if 
the issue is property protection, I think that is not 
necessarily what an individual insurer is likely to consider 
the best possible. IBHS has developed a voluntary standard. It 
is called Fortified Home or Fortified for Safer Living, and 
does go above code. It is hazard-specific. So we try to 
identify the types of building construction techniques that 
will help for specific hazards. Again, every insurance company 
does make its own decisions but several states have recognized 
Fortified and requiring insurance companies to do that in their 
filings. So we do have a little bit of a track record in 
Mississippi, Alabama, Louisiana, South Carolina, and we are 
seeing that companies are in fact individually making decisions 
in terms of filing.
    That said, I want to emphasize that the types of things 
that are in Fortified are not unaffordable. They are relatively 
low-cost improvements that a homeowner can make. I am talking 
about a couple of thousand dollars generally, particularly in 
an area that already has a code. One of our partners in terms 
of Fortified for Safer Building is Habitat for Humanity. They 
are actually the largest builder in this country at this point 
in time, and we have partnered with Habitat on a number of 
Fortified homes in hurricane-prone areas and in other areas and 
so if we can get those Fortified standards into a Habitat home, 
you know that those are not unaffordable standards. It is a 
question of sort of being there at the time when decisions are 
being made. You know, to say to someone that has a roof on a 
home, this is not a good roof, you need to take off this roof 
and put a whole other roof on is a very expensive proposition, 
but if you are at the point where a homeowner is replacing a 
roof or needs to replace a roof because the first roof has 
blown off, it doesn't cost that much more to build to a 
Fortified standard.
    Mr. Neugebauer. I think one of the things that--another 
theme of this particular legislation but I think a theme that 
we hear a number of the people up here talk about is, you know, 
dissemination of that information and coordination of that 
information, and so, for example, this research, for example, 
do you sit down with, say, industry participants, say, the 
national home builders, for example, and share, you know, this 
information and introduce a dialog with them to make sure that 
they are being made aware of this?
    Ms. Ballen. We certainly have started that. They started 
out rather negative and skeptical of IBHS and our capabilities 
and our mitigation messages but we have invited them all to our 
research center. They see that $40 million facility, they see 
that fan capability and they realize that we are very serious 
about doing the research and doing the communications and that 
has led to a much more constructive dialog. There are a number 
of organizations that we have had longstanding, very positive 
relationships with, and I should mention the ASCE is probably 
one of our strongest partners here in Washington and at the 
state level and certainly at the technical level as well. They 
have visited our research center. The architects are another 
group that we are trying to encourage young architects in 
architectural schools to incorporate stronger building into 
their curricula. So we are reaching out to a number of 
organizations. Our companies reach out to their policyholders. 
We try to leverage those relationships to try to get the word 
out into social media, which of course is huge in all areas and 
is huge after disasters. We are trying to make that part of the 
mitigation movement as well.
    Mr. Neugebauer. Okay. I thank the gentleman for yielding.
    Chairman Bucshon. I now recognize Ms. Johnson for her line 
of questioning, five minutes.
    Ms. Johnson. Thank you very much.
    Just as a follow-up to the course of questioning, I can't 
forget the image of seeing the one lone house that remained 
standing during Hurricane Ike in Galveston, only to think how 
did it survive out there alone, to find later that the entire 
neighborhood was devastated and that house survived, and it was 
because they had used the type of materials that would resist 
many winds. How do we--I just heard your comments from the 
standpoint of encouraging architects but it seems to me that 
local ordinances when permission is gotten for building has to 
be involved. How do we do that without making it seem that this 
is big government trying to boss everybody? But I should think 
that insurance companies should be very interested in having 
resilience in the building as well as governments. You know, 
with the ability of our satellite system to predict, we have 
gone a long way in saving lives but we haven't done nearly as 
well in saving property, and that is a major concern in an 
economy like today. How do you see that responsibility fitting 
where and what can we do?
    Dr. Kiesling. Representative Johnson, one thing I would 
tell you about that is one building that you saw in Ike, I saw 
one building or one neighborhood in Moore, Oklahoma, that had 
hurricane ties, something that actually would hold the roof 
down to the wall, just one out of thousands and thousands that 
we looked at. Essentially, we have to do a better argument to 
convince individuals, as Ms. Ballen said, that this is 
something that they ought to think about instead of that 
granite countertop. Let us look back at ourselves 100 years 
ago, our large cities--Chicago, New York, San Francisco--we all 
faced fire considerations. Blocks and blocks were burning down. 
It was at that time that those city leaders, legislators, 
politicians and the public got together and said enough is 
enough; if Chicago is going to survive, we are going to have 
to, you know, all pull in one direction, and that is what we 
did. And we can do it again. We have the ability to do it 
again. I think right now the public is generally fearful of 
tornados, fearful of the wind hazard, and they believe we don't 
have the talent to do it. I think if we have put a man on the 
moon, we could pretty much keep a roof on a house.
    Ms. Ballen. I certainly agree with that statement. We are 
very strong supporters of building codes, and about a year ago, 
we did a little study. We called it ``Rating the States,'' and 
we looked at the building-code regimes from Texas to Maine in 
the coastal states on a one to one--a zero to 100 scale. The 
scores ranged from four to 95. So there was quite a range. And 
I will tell you that as a public communications vehicle, a lot 
of people may not know what a building code is but they know 
that is good to have a high score and it is bad to have a low 
score, and that really has started a dialog, and the most 
positive responses that we have gotten from the media certainly 
have been in those states with the low scores about how they 
can do better. One state that was not at the bottom, was in the 
middle but actually passed a bill this year--Maryland, that 
specifically addressed an issue that we had identified in those 
states. So it is a way of making building codes understandable 
to people so again they begin to demand that they want to be--
we would say ideally in a state, we support statewide mandatory 
building codes. It is much easier for enforcement. It is much 
more consistent. But there are some states where that hasn't 
happened, and Texas certainly is one of them. At a minimum at 
the local level there ought to be strong ordinances in effect.
    Ms. Johnson. Any other witness comments? Thank you, Mr. 
Chairman. I yield back.
    Chairman Bucshon. Thank you. I now recognize Mr. Lipinski 
for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    In his testimony, Dr. Kiesling calls for economic, social 
and behavioral studies to understand implementation of research 
results like stronger building codes. I think this is something 
very important that we have to use the lessons from social 
science to ensure that the other lessons that we are learning 
from research get implemented. Can Dr. Kiesling and other 
witnesses expand upon that and where exactly they see the 
importance?
    Dr. Kiesling. I think implementation is a serious problem 
in many areas. I would back up a little bit and say that in 
terms of improved building codes, we can do a lot of good by 
simply meeting existing building codes that are not, say, 
effectively enforced or inspected, but if we increased the 
design wind load only a small amount, we would save a lot of 
property because even in a tornado, most of the damage is done 
at wind speeds, say, in the 100- to 125-mile-per-hour wind, and 
if we design for a little bit more than we do, 90- or 100-per-
hour winds, that would save a lot of the structures that are 
currently being destroyed.
    I don't know what the answers are to implementation but I 
see it as a serious, serious problem, not only in enforcing 
building codes but it haunts me that I hear reports of traffic 
deaths in our city, and in many instances people were killed in 
rollover accidents without wearing their seat belts so they are 
sitting on property they already own that can be very effective 
in saving lives, and so it should not surprise us, I think, 
that we have problems in enforcing building codes and 
motivating people to do a better job of construction. I don't 
know the answers but I think we need to involve maybe social 
sciences and disciplines that we have not effectively engaged 
before to see how do we implement what we already know, but 
there is much more to be learned. I don't say we have all the 
answers. We need to learn much more but we also need to do a 
better job of using what we already have.
    Ms. Ballen. We are hoping actually to gather social 
scientists at our research center this December so that we can 
really begin to explore that in more detail. To the extent we 
have sort of sketched out the way we think about this issue, we 
think it is first a question of getting the hearts and minds of 
people, getting them to really sort of want this, and we talked 
about that a little bit before in terms of one of the answers 
to the previous questions. The second is providing the adequate 
incentives. That is for both individuals and for states. An 
example of how that might work at the state level is the Safe 
Building Code Incentive Act that also has been introduced in 
this Congress. It provides additional funding for States that 
do the right thing in terms of enacting strong building codes. 
That is a financial incentive. There could be other incentives 
for individuals. And finally, understanding the politics of 
this. We talked about the builders. You know, we have to make 
this a win-win proposition and make the market really want this 
to happen for us to sort of address those social-science 
issues.
    Dr. Prevatt. I might add that NOAA and the NSF, National 
Science Foundation, last year, they operated, or they organized 
a pretty comprehensive workshop called Weather Ready Nation in 
which they brought together the physical scientists and 
engineers with the social scientists to actually discuss the 
issues of weather, you know, acknowledging that yes, 
forecasting has got us so far, and yes, we are better at it but 
the property damage. So the move has been started. There is a 
report which if you would like I can provide that link to you 
in which we are now working with social scientists. I was on a 
rapid NSF project in Moore, Oklahoma, and we did involve 
Mississippi State social scientists and social scientists from 
the University of Alabama as well as ourselves, engineers in 
other universities.
    Mr. Lipinski. Thank you. I would like to take a look at 
that. I think it is something that we oftentimes overlook I 
think in legislation here. We should make sure that in NWIRP we 
include social sciences because you can do all the research 
that you want to know how to mitigate damage to property, 
threats to human life if no one is implementing those and we 
don't know, as Ms. Ballen said, we are not sure about the 
incentives of how to get people to actually take that into 
account. Then we just have research sitting on a shelf that is 
not doing anyone any good, so I think that is something 
important that we have to make sure that we are considering 
here in providing at the Federal level.
    I yield back. Thank you.
    Chairman Bucshon. Thank you. I now recognize Ms. Esty for 
five minutes.
    Ms. Esty. Thank you, Mr. Chairman.
    As a quick follow-up to Mr. Lipinski's discussion for Ms. 
Ballen, in looking at incentives, is the insurance industry 
offering lower premiums to those who have retrofitted or, say, 
hurricane ties and what sort of incentives is the marketplace 
providing? Because we know, for example, the tax credits do not 
seem to be terribly effective right now, so I am wondering what 
is being done on the private side.
    Ms. Ballen. I always do stress that individual companies 
make their own decisions, but that said, IBHS developed a code 
plus standard called Fortified. We know that those technical 
standards work and the program includes an inspection and 
designation process so that we know that the homes that were 
built to those standards, supposedly built to those standards, 
really are built to those standards. Many individual companies 
are providing discounts for Fortified homes, and that has also 
been required in rate filings in some states, but it is not 
enough to say ``oh, if a homeowner says or a builder says that 
they have built to that standard, it is.''It has got to be 
inspected, it has got to be verified.
    Ms. Esty. Thank you, and a further follow-up. Living in 
Connecticut where we experienced a number of storms over the 
last few years, we have great concern about resilience about 
the life lines, utilities, infrastructure. So if any of the 
three of you can talk a little bit about what is being done on 
the research side, on these critical issues where you can't 
have rebuilding, you can't have--you can't even get access to 
people. You can't get them back on line, and what we ought to 
be looking at in that department.
    Dr. Prevatt. I think that is the entire direction of the 
Engineering School of Sustainable Infrastructure and 
Environment at the University of Florida. That is our entire 
mission. It is in several universities, resilience and 
sustainability, the hallmarks of what we are doing in civil 
engineering. Before we get to a sustainable society, we first 
of all have to get a resilient one, one that is more robust, 
and the research sometimes is fundamental to this. We do need 
to better understand the loads. We do need to better understand 
the structural properties of the buildings, the infrastructure, 
the utilities, what have you, but, you know, I think we really 
just need to decide, we really do need just to decide that we 
want to live in a sustainable society, and we can do it. Yes, 
it will cost some money, it will cost some time, but I 
guarantee if you put engineers and scientists, social 
scientists as well, on this case, we can do this in ten years. 
It takes, you know, just that bold vision to go after it.
    Ms. Esty. Well, I know some of the work, say, that Frances 
Cairncross has done looking at multiple ways to address 
climate-change issues and particularly with our populations 
being increasingly concentrated on the coasts. We are seeing--
whatever it is attributable to, we are certainly seeing an 
increase in more severe weather. So I think it is going to be 
extremely important that we take this resilience line of 
research quite seriously and address it as an extremely high 
priority as we are extremely energy-dependent for everything 
that we do. If we do not harden our systems, we have been 
looking at cybersecurity but we also just need to look at 
natural weather ability to bring down whole cities, and I am 
quite concern that we not forget how critical that is. Just 
look what happened in Staten Island, look what happened in New 
York, and we do need to be emphasizing retrofitting, not just 
new standards, but what are we going to do with major cities 
that need to be retrofitted for the utilities.
    Thanks very much. I yield back the balance of my time.
    Chairman Bucshon. Thank you. I now ask unanimous consent to 
recognize a member of the full Committee for questioning. If 
there is no objection then, the Chair now recognizes Mr. 
Neugebauer for five minutes.
    Mr. Neugebauer. Thank you, Mr. Chairman, and I would also 
like to return the favor and yield a little of my time to Mr. 
Schweikert from Arizona.
    Mr. Schweikert. Thank you. I didn't know if I should object 
there and then I could yield. Thank you, Mr. Chairman.
    It is Ms. Ballen?
    Ms. Ballen. Ballen.
    Mr. Schweikert. Ballen. Actually, Elizabeth was hitting a 
point that I wanted to go to. We all live in a world where how 
many of us right now will go out and buy a Volvo over a, is it 
a Corvair? Any of us that are old enough to remember a Corvair, 
you know, unsafe at any speed. But the fact of the matter is, 
when you are buying a car today, aren't we also looking at the 
Consumer Reports and saying hey, this is safe, my insurance is 
cheaper. There is a price differential there driven by the 
insurance industry that actually changes our purchasing 
behavior. Why isn't that also the decision for those who are 
purchasing residential real estate is our price differential 
and our cost of insurance?
    Ms. Ballen. That is an excellent question and one we ask 
ourselves every single day. Our peer organization is the 
Insurance Institute for Highway Safety, and they showed the 
way, how research and communications lead to safer cars and 
people wanting them, and then you have enough people with these 
cars that you really begin to see the difference in the losses, 
and insurance companies respond to that.
    Mr. Schweikert. But, you know, I understand for public 
buildings and schools and those things, particularly those with 
some Federal resources in them, we have a voice there. But if I 
am out buying a residential property or getting ready to refit 
or remodel and I--how many of us have bought a house and we 
will fixate on small margins on the interest rate between one 
lender and another? But if there is actual price differentials 
understood in the market between I did these types of tie-downs 
on my roof and this house doesn't have these sorts of tie-downs 
so I am going to pay this sort of premium, isn't that the 
ultimate solution here?
    Ms. Ballen. That is the ultimate solution. The market is 
the ultimate solution. It would be benefited by the kind of 
research that we are talking about but ultimately people need 
to want that. Now, I think the impediments are----
    Mr. Schweikert. Well, the work is on incentives and 
disincentives, so they want it; they just need to understand 
there is a price difference.
    Ms. Ballen. They need to understand that, yes, and the 
building industry is much more complicated than the automobile 
industry. There are thousands of builders out there versus, you 
know, five or six or seven car companies. The guys that do it 
are every roofer, you know----
    Mr. Schweikert. Well, and only because my undergrad is in 
real estate and my master's focus was in financing, the real 
estate world is the life I grew up in. It is not the builders, 
it is the consumer. And if you told me--if I came to you right 
now and said hey, you buy this house because of the attributes, 
you pay this interest rate, but if I bought this one I would 
pay this interest rate, we all scream and go running to this 
one. Why is it not the same in insurance? And Mr. Chairman, I 
would like to yield to Mr. Neugebauer because I know he had a 
little bit more on this.
    Ms. Ballen. Okay.
    Mr. Neugebauer. I thank the gentleman.
    Dr. Kiesling, you know, one of the things that you 
mentioned a while ago is that the winds of a tornado are much 
different than a gust, vertical wind. So there are different 
categories of events, all the way from, I guess, an F-0 to F-5 
so there is probably--at this particular point in time the F-5 
is just, we don't have the technology, you know, on an economic 
basis to protect a home from an F-5 storm probably. So then if 
we go just to the mitigation of life over property saying the 
house doesn't make it, but there are things that you have done, 
worked on of various degrees that are fairly affordable inside 
that home of fortification. Could you just kind of cover a 
little bit of what are some practical things that could be done 
in the homes both retrofit and new construction?
    Dr. Kiesling. Well, thank you for asking. I think from 
early on we more or less adopted the approach that it is very 
expensive to take a home of the type that we build today and 
design it to resist the worst-case tornado. You can certainly 
improve the performance and protect against severe damage from 
the vast majority of even tornados because, as I said before, 
the damage is caused by marginal wind speeds, but we adopted 
the idea or the philosophy of providing occupant protection in 
a small room, now called a safe room, because it is very 
affordable to harden and stiffen a small room of a house to 
provide near-absolute occupant protection. That might be a 
closet, a pantry, a bathroom, and that is practical for new 
construction, but the vast majority of safe rooms being 
installed today are manufactured. They are steel boxes, 
concrete boxes, timber boxes installed in a garage, on the slab 
of a garage, and they are very affordable. There even those 
shelters that are mounted under the slab. You can go in the 
garage, cut out a section of a piece of the garage floor, 
excavate, put a shelter under there and put a sliding door on 
it so you provide protection without even losing a parking 
space. There are many, many options available today, and I 
would say for almost every situation or circumstances, it is 
possible to design occupant protection from the worst-case 
tornado, and we have a real problem with that right now with 
public perception because there was so much bad publicity, 
misinformation in Oklahoma about having to be underground to 
survive an EF-5. That is simply a falsehood that should be 
squelched.
    But in answer to your question, I think there is a way to 
protect life in a safe room very inexpensively, and I think we 
must do the best we can in reducing the damage by improving the 
buildings through building-code enforcement.
    One other point that I would make that is different in the 
automobile industry and in the home-building industry, both are 
sensitive to initial cost but most of the houses are built 
speculative today, and as you well know, the marketability of 
housing is very, very sensitive to the initial cost, and not 
only builders but I think homeowners too look at that initial 
cost and resist any improvement that costs very much initially.
    Chairman Bucshon. Thank you very much. At this point, I 
would like to thank the witnesses for their testimony and the 
Members for their questions. The Members of the Committee may 
have additional questions for you, and we will ask that you 
respond to those in writing. The record will remain open for 
two weeks for additional comments and written questions from 
the Members.
    At this point the witnesses are excused. The hearing is 
adjourned.
    [Whereupon, at 11:17 a.m., the Subcommittees were 
adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


                   Answers to Post-Hearing Questions
Responses by Dr. Ernst Kiesling

[GRAPHIC] [TIFF OMITTED] 


Responses by Ms. Debra Ballen

[GRAPHIC] [TIFF OMITTED] 

Responses by Dr. David Prevatt

[GRAPHIC] [TIFF OMITTED] 


                              Appendix II

                              ----------                              


                   Additional Material for the Record

         Submitted statement by Representative Daniel Lipinski,
               Ranking Member, Subcommittee on Research,
              Committee on Science, Space, and Technology,
                     U.S. House of Representatives

    Thank you, Chairman Bucshon and Chairman Massie for holding today's 
hearing to examine federal efforts to reduce the impacts of windstorms.
    This is an incredibly important topic. Every year, severe winds 
from hurricanes, tornadoes, and thunderstorms damage or destroy 
thousands of homes and businesses, harm vital infrastructure, and, most 
importantly, threaten human life. An average of 74 Americans have died 
in tornadoes each year since 1983. My prayers go out to those in Moore, 
Oklahoma as well as those outside of Oklahoma City, who are currently 
dealing with this loss. We also cannot forget the more than 1,000 
people who lost their lives in Hurricane Katrina.
    The extent of property damage and economic losses from windstorms 
vary widely, but since 2010, economic costs are well over a $100 
billion dollars.The National Windstorm Impact Reduction Program or N-
WIRP has the potential to lessen the loss of life and economic damage 
by translating research and development on the understanding of 
windstorms and their impacts into improved building codes and emergency 
planning.
    In order for these efforts to be effective they cannot leave out 
the most critical component--people. Understanding how people--such as 
state and local officials, business owners, and individuals--make 
decisions and respond to storm warnings is essential to designing 
effective strategies to prepare for, respond to, and recover from a 
disaster.
    A recent survey by the National Center for Disaster Preparedness 
accurately highlights this need. The survey found that most Americans 
are unprepared for a major disaster and that they have a false sense of 
security about what will happen if a major disaster occurs.
    Specifically, more than half of the families surveyed had no 
emergency plan in place for a hurricane or earthquake, and those who 
had a plan lacked essential items to implement their plan like 
flashlights and extra batteries. Even more unsettling is that one third 
of the individuals surveyed believed that calling 911 after a major 
disaster would bring them help within an hour. This is in stark 
contrast to reality which shows that emergency responders are 
overwhelmed after major disasters and communities often have to take 
care of themselves for several days before help is able to arrive.
    I mention this because I think it is important to remember that we 
can perform all the engineering and natural science research we like, 
but in the grand scheme of things if we don't have a clear 
understanding of the human element in disaster mitigation, 
preparedness, and response then those efforts may be for not.
    We only have to look to Moore, Oklahoma for an example. Moore had 
been hit by an EF5 tornado--the most powerful category--before, back in 
May 1999. One of the myths about tornadoes is that they will not hit 
the same city more than once. So when individuals are debating spending 
the $2,500 to $5,000 on a shelter or the $4,000 to $12,000 on a safe 
room, they are doing so thinking that another tornado will not hit and 
therefore, the extra expense is probably unnecessary. In fact, of the 
40 new homes constructed since that May 1999 storm, only six of them 
contained a safe room.
    Building disaster resilient communities will take an 
interdisciplinary approach and that approach must include social 
science research.

                                 <all>

</pre></body></html>
